   October 10, 2006




Financial Management
Internal Controls Over the Army
General Fund, Note 3, “Fund Balance
With Treasury,” Disclosures
(D-2007-003)




                   Department of Defense
                  Office of Inspector General

                                    Constitution of
                                   the United States

      A Regular Statement of Account of the Receipts and Expenditures of all public
      Money shall be published from time to time.
                                                              Article I, Section 9
 Additional Copies

 To obtain additional copies of this report, visit the Web site of the Department of
 Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
 Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
 (703) 604-8932.

 Suggestions for Future Audits

 To suggest ideas for or to request future audits, contact the Office of the Deputy
 Inspector General for Auditing at (703) 604-8940 (DSN 664-8940) or fax (703)
 604-8932. Ideas and requests can also be mailed to:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704




Acronyms

AGF                  Army General Fund
DFAS                 Defense Finance and Accounting Service
FBWT                 Fund Balance With Treasury
FMR                  Financial Management Regulation
FMS                  Financial Management Service
IPAC                 Intra-Governmental and Payment Collection
OMB                  Office of Management and Budget
OPAC                 On-Line Payment and Collection System
OUSD(C)/CFO          Office of the Under Secretary of Defense (Comptroller)/Chief
                        Financial Officer
SF                   Standard Form
SFFAS                Statement of Federal Financial Accounting Standards
SOP                  Standard Operating Procedure
                            INSPECTOR GENERAL 

                           DEPARTMENT OF DEFENSE 

                              400 ARMY NAVY DRIVE 

                         ARLINGTON, VIRGINIA 22202-4704 




                                                                         October 10,2006

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE
                 (COMPTROLLER)/CHIEF FINANCIAL OFFICER 

               ASSISTANT SECRETARY OF THE ARMY (FINANCIAL
                 MANAGEMENT AND COMPTROLLER)
               DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                 SERVICE INDIANAPOLIS

SUBJECT: Report on Internal Controls over the Army General Fund, Note 3, "Fund
         Balance With Treasury," Disclosures (Report No. D-2007-003)

       We are providing this report for review and comment. We considered
management comments from the Director, Defense Finance and Accounting Service
Indianapolis on a draft of this report when preparing the final report.
       DoD Directive 7650.3 requires that all recommendations be resolved promptly.
The Office of the Under Secretary of Defense Comptroller/(ChiefFinancial Officer) did
not provide comments on the draft report. Therefore, we request comments by
November 9,2006. The Director, Defense Finance and Accounting Service Indianapolis
comments were partially responsive on Recommendations A.2.a-f., and D.1., and not
responsive on Recommendations C. 1.i. and D.2.e. Therefore, we request additional
comments by November 9,2006.
       If possible, please send management comments in electronic format (Adobe
Acrobat file only) to Auddfs@,dodig.mil. Copies of the management comments must
contain the actual signature of the authorizing official. We cannot accept the / Signed /
symbol in place of the actual signature. If you arrange to send classified comments
electronically, they must be sent over the SECRET Internet Protocol Router Network
(SIPRNET).
       We appreciate the courtesies extended to the staff. Questions should be directed
to Mr. Douglas Neville at (703) 428-1061 (DSN 328-1061) or Mr. Mark Henricks at
(703) 428-1270 (DSN 328-1270). See Appendix H for the report distribution. The team
members are listed inside the back cover.

                                By direction of the Deputy Inspector General for Auditing:




                                   Defense Financial Auditing Service
                Department of Defense Office of Inspector General

Report No. D-2007-003                                                   October 10, 2006
   (Project No. D2005-D000FP-0248.001)

              Internal Controls over the Army General Fund,
             Note 3, “Fund Balance With Treasury,” Disclosures

                                 Executive Summary

Who Should Read This Report and Why? Defense Finance and Accounting Service
(DFAS) personnel involved with the accounting and reporting of the Fund Balance With
Treasury (FBWT) account should read this report. This report contains guidance that
DFAS can use to assist in its reporting of Note 3, “Fund Balance With Treasury,”
disclosures.

Background. We performed this audit in support of Public Law 101-576, the “Chief
Financial Officers Act of 1990,” November 15, 1990, as amended by Public
Law 103-356, the “Federal Financial Management Act of 1994,” October 13, 1994, and
Public Law 104-208, the “Federal Financial Management Improvement Act of 1996,”
September 30, 1996.

The Army reported $130.7 billion in its FBWT account and $290.6 billion in total assets
on its General Fund Balance Sheet as of June 30, 2005. The Army General Fund FBWT
account represented 31.0 percent of the FBWT account reported on the DoD
Agency-Wide Balance Sheet as of June 30, 2005.

Results. We reviewed Note 3, “Fund Balance With Treasury,” disclosures on the
June 30, 2005, Army General Fund Notes to the Financial Statements. DFAS
Indianapolis needs to strengthen its controls and improve its process for reporting Note 3,
“Fund Balance With Treasury.” DFAS Indianapolis did not properly compute Line 2.A.,
“Fund Balance per Treasury,” in Note 3, “Fund Balance With Treasury,” on the June 30,
2005, Army General Fund Notes to the Financial Statements. As a result,
DFAS Indianapolis understated Line 2.A, “Fund Balance per Treasury,” and Reconciling
Amount in Note 3, “Fund Balance With Treasury,” by $102.5 million (Finding A).

DFAS Indianapolis needs to strengthen its controls over Note 3, “Fund Balance With
Treasury,” disclosures for check issue differences. DFAS Indianapolis did not accurately
disclose check issue differences in Note 3, “Fund Balance With Treasury,” on the
June 30, 2005, Army General Fund Notes to the Financial Statements. Also, DFAS
Indianapolis did not disclose that May 2005 check issue differences information was used
instead of June 2005 information in Note 3, “Fund Balance With Treasury.” Finally,
DFAS Indianapolis did not provide an explanation for the check issue differences in Note
3, “Fund Balance With Treasury.” As a result, DFAS Indianapolis understated the
amount of check issue differences between its records and Treasury records by
$9.0 million in Note 3, “Fund Balance With Treasury,” and did not provide required
information to financial statement users (Finding B).
DFAS Indianapolis needs to strengthen its controls over Note 3, “Fund Balance With
Treasury,” disclosures for deposit and intragovernmental payment and collection
differences. DFAS Indianapolis did not disclose the net and absolute amount of deposit
and intragovernmental payment and collection differences on the June 30, 2005, Army
General Fund Note 3, “Fund Balance With Treasury.” As a result, DFAS Indianapolis
did not disclose deposit differences of $308.5 million (absolute amount $506.4 million),
and intragovernmental and payment collection differences of $5.8 million (absolute
amount $5.8 million) (Finding C).

DFAS Indianapolis needs to improve its controls over Note 3, “Fund Balance With
Treasury,” disclosures for suspense and budget clearing accounts. DFAS Indianapolis
did not properly disclose the suspense and budget clearing accounts in Note 3, “Fund
Balance With Treasury.” In addition, DFAS Indianapolis did not follow the Office of the
Under Secretary of Defense (Comptroller)/Chief Financial Officer, 1st Quarter Guidance
for reporting suspense and clearing accounts in Note 3, “Fund Balance With Treasury.”
As a result, DFAS Indianapolis understated its suspense and budget clearing amount in
Note 3, “Fund Balance With Treasury,” by $1.9 million on the June 30, 2005, Army
General Fund Notes to the Financial Statements (Finding D).

The DoD Financial Management Regulation, volume 6B, chapter 10, Note 3, “Fund
Balance With Treasury,” January 2006, does not provide adequate controls for ensuring
that Note 3, “Fund Balance With Treasury,” disclosures are properly supported and
accurate. Specifically, the DoD Financial Management Regulation incorrectly includes
“receipts that are unavailable” in the calculation of Line 2.A., eliminates the required
disclosures in Note 3, “Fund Balance With Treasury,” and incorrectly requires the
suspense and budget clearing account balance to agree with the Treasury Financial
Management Service FMS 6653, “Undistributed Appropriation Account Ledger.” As a
result, DoD reporting entities will continue to misstate Note 3, “Fund Balance With
Treasury,” disclosures (Finding E).

Management Comments and Audit Response. The Office of the Under Secretary of
Defense (Comptroller)/Chief Financial Officer did not provide any management
comments. The Director, DFAS Indianapolis concurred with 42 recommendations. He
stated that they are working closer with customers (Army and Defense Agencies) on
reviewing footnotes prior to releasing reports, updating their standard operating
procedures to include footnote requirements, and reviewing all their internal and
management controls to ensure that they are in compliance with FMFIA requirements.
However, the Director, DFAS Indianapolis nonconcurred with Recommendation C.1.i.
and D.2.e. For Recommendation C.1.i., he stated that the DoD Financial Management
Regulation does not require the amount and age of intragovernmental payments and
collections or deposit differences to be disclosed. However, auditing standards and the
Office of Management and Budget require agencies to explain any discrepancies between
the FBWT account balance in their general ledger and the balance in the Treasury
accounts. For Recommendation D.2.e., he stated that only eight clearing accounts are
aged for the Suspense Account Report. However, aging all suspense and budget clearing
accounts will provide a more detailed picture of disbursements and collections in
suspense. We request that the Office of the Under Secretary of Defense
(Comptroller)/Chief Financial Officer and the Director, DFAS Indianapolis provide
comments on the final report by November 9, 2006. See the Finding sections of the
report for a discussion of management comments and the Management Comments
section of the report for the complete text of comments.



                                            ii
Table of Contents

Executive Summary                                                   i

Background                                                          1

Criteria                                                            3

Objectives                                                          3

Review of Internal Controls                                         4


Findings
     A.    Calculation of Line 2.A., “Fund Balance per Treasury”    6
     B.    Check Issue Differences                                 11
     C.    Deposit and IPAC Differences                            17
     D.    Suspense and Budget Clearing Accounts                   23
     E.    Revised DoD Financial Management Regulation             27

Appendixes
     A. Scope and Methodology                                      32
     B. Prior Coverage                                             34
     C. Fund Balance With Treasury                                 36
     D. Glossary                                                   37
     E. Treasury Reports for Fund Balance With Treasury            40
     F. SOPs for Problem Disbursements
          and Financial Reporting                                  41
     G. Office of Management and Budget Circular A-123             43
     H. Report Distribution                                        46

Management Comments
     Defense Finance and Accounting Service                        49
Background
    We performed this audit in support of Public Law 101-576, the “Chief Financial
    Officers Act of 1990,” November 15, 1990, as amended by Public Law 103-356,
    the “Federal Financial Management Act of 1994,” October 13, 1994, and Public
    Law 104-208, the “Federal Financial Management Improvement Act of 1996,”
    September 30, 1996.

    Fund Balance With Treasury. Fund Balance With Treasury (FBWT) is an asset
    account that represents a material line item on the June 30, 2005, Army General
    Fund (AGF) Balance Sheet and the DoD Agency-Wide Consolidated Balance
    Sheet. Table 1 shows the AGF and DoD FBWT account as a percentage of the
    AGF and DoD total assets. Table 1 also shows the AGF FBWT account as a
    percentage of the DoD FBWT account and AGF total assets as a percentage of
    DoD total assets.

            Table 1. June 30, 2005 Consolidated Balance Sheet Extracts
                                                                      AGF as a
                                                   DoD              Percentage of
                                AGF             Agency-Wide       DoD Agency-Wide
     FBWT                   $ 130.7 billion    $ 420.9 billion      31.0 percent
     Total Assets              290.6 billion    1,389.7 billion     20.9 percent
     FBWT as a
     Percentage of Total      45.0 percent      30.3 percent
     Assets

    Statement of Federal Financial Accounting Standards (SFFAS) No. 1,
    “Accounting for Selected Assets and Liabilities,” March 30, 1993, defines an
    entity’s FBWT as “. . .the aggregate amount of funds in the entity’s accounts with
    Treasury for which the entity is authorized to make expenditures and pay
    liabilities.” See Appendix C for more information on FBWT. See Appendix D
    for a glossary of FBWT terminology.
    Notes to the Financial Statements. Notes are an integral part of the financial
    statements. Notes to the financial statements present information about how the
    financial statements were prepared and the specific accounting policies selected
    and applied for significant transactions and events. Notes also provide further
    detail about the amounts reported on the statements. In addition, notes disclose
    information that is not presented elsewhere in the financial statements but which
    is required by the SFFASs.




                                         1
DoD Reporting of Receipts and Disbursements to Treasury. Disbursing
officers and agencies report their accountability and transactions on the following
standard forms (SF):

           •   SF 1219: Statement of Accountability and

           •   SF 1220: Statement of Transactions.

The SF 1219 summarizes collection and disbursement activity for the month. The
SF 1220 shows a detailed account classification of the collections and
disbursements processed in disbursing officers’ accounts for the current
accounting period. Agencies must identify each receipt or disbursement
accounting transaction with the appropriate Treasury fund account symbol. The
Department of Treasury (Treasury) uses agencies’ reporting of receipts and
disbursements to update its record of agencies’ FBWT account balances.

Treasury Financial Management Service Reports. Treasury Financial
Management Service (FMS) records the disbursement and collection data from
the Statements of Transactions in the FBWT account maintained for each
expenditure and receipt account in the Treasury’s accounting and reporting
system. The Treasury FMS then prepares five FBWT reports, two for
expenditure accounts and three for receipt accounts. See Appendix E for a
discussion of the Treasury reports for FBWT.

Defense Finance and Accounting Service Indianapolis. The Defense Finance
and Accounting Service (DFAS) Indianapolis provides finance and accounting
support to the Department of the Army. Support includes maintaining the Army
accounting records. DFAS Indianapolis also prepares the Army financial
statements using general ledger trial balances and the status of appropriation data
submitted by DoD field activities and other sources. DFAS Indianapolis is also
responsible for ensuring the accuracy of the FBWT reported on the AGF Balance
Sheet and Notes to the Financial Statements. Specifically, DFAS Indianapolis is
responsible for establishing procedures to ensure that:

       •   the process for preparing financial reports is consistent, timely, and
           auditable;

       •   the controls are in place to ensure the accuracy of the reports;

       •   the amounts reported agree with the appropriate general ledger
           balance; and

       •   a complete and documented audit trail is maintained to support the
           reports it prepares.




                                     2
Criteria
     Office of Management and Budget. Office of Management and Budget Bulletin
     No. 01-09, “Form and Content of Agency Financial Statements,”
     September 25, 2001, (OMB Bulletin 01-09) provides guidance for preparing
     agency financial statements. It defines the form and content for agency financial
     statements, which must then be submitted to the Director of OMB and Congress.
     The format and instructions provide a framework for agencies to provide
     information useful to agency managers, Congress, and the public.

     DoD Financial Management Regulation. DoD Regulation 7000.14-R,
     Financial Management Regulation, volume 6B, chapter 10, “Notes to the
     Financial Statements,” January 2002, (DoD FMR, volume 6b, chapter 10)
     provides guidance on the presentation of Note 3, “Fund Balance With Treasury,”
     (Note 3). DoD FMR, volume 6b, chapter 10, January 2002, also provides
     guidance on the presentation of Note 21.B, “Disclosures Related to Problem
     Disbursements,      In-transit Disbursements, and Suspense and Budget Clearing
     Accounts.”

     Guidance Issued Subsequent to June 30, 2005. Office of Management and
     Budget Circular No. A-136, “Financial Reporting Requirements,”
     August 23, 2005, (OMB Circular A-136) supersedes, incorporates, and updates
     OMB Bulletin 01-09. The provisions of OMB Circular A-136 in its entirety are
     effective for the preparation of the September 30, 2005, financial statements.

     The Office of the Under Secretary of Defense, (Comptroller)/Chief Financial
     Officer, (OUSD[C]/CFO) revised DoD FMR, volume 6B, chapter 10 in
     January 2006. The new regulation revised Note 3 and incorporated information
     from Note 21.B. “Disclosures Related to Problem Disbursements, In-transit
     Disbursements, and Suspense and Budget Clearing Accounts.”

     Interim Guidance. The OUSD(C)/CFO issues quarterly guidance to assist in the
     preparation of financial statements. This quarterly interim guidance supplements
     the DoD FMR, volume 6B, “Form and Content of the Department of Defense
     Audited Financial Statements.”

Objectives
     Our overall audit objective was to assess the internal controls over the Army
     General Fund Note 3, “Fund Balance With Treasury,” disclosures as of
     June 30, 2005. We also reviewed the management control program as it related to
     the overall objective. See Appendix A for scope and methodology and
     Appendix B for prior coverage related to the objectives.




                                         3
Review of Internal Controls
           DoD Directive 5010.38, “Management Control Program,” August 26, 1996, and
           DoD Instruction 5010.40, “Management Control Program Procedures,”
           August 28, 1996, 1 require DoD organizations to implement a comprehensive
           system of management controls that provides reasonable assurance that programs
           are operating as intended and to evaluate the adequacy of the controls.

           Scope of the Review of the Management Control Program. We reviewed the
           adequacy of DFAS Indianapolis internal controls over the reporting of the
           June 30, 2005, AGF, Note 3 disclosures. We also reviewed management’s
           self-evaluation applicable to those controls.

           Adequacy of Management Controls. Material management control weaknesses
           existed at the OUSD(C)/CFO and DFAS Indianapolis as defined by DoD
           Instruction 5010.40. DFAS Indianapolis internal controls were not adequate to
           ensure that:

                   •    Line 2.A. was properly calculated and disclosed in the AGF, Note 3
                        (Finding A). Recommendation A., if implemented, will improve the
                        procedures for calculating and disclosing Line 2.A. at DFAS
                        Indianapolis.

                   •    check issue differences were properly disclosed in the AGF, Note 3
                        (Finding B). Recommendation B., if implemented, will improve the
                        procedures for disclosing check issue differences at DFAS
                        Indianapolis.

                   •    deposit and intragovernmental payment and collection (IPAC)
                        differences were properly disclosed in AGF, Note 3 (Finding C).
                        Recommendation C., if implemented, will improve the procedures for
                        disclosing deposit and IPAC differences at DFAS Indianapolis.
                   •    suspense and budget clearing accounts and amounts were properly
                        disclosed in Note 3 (Finding D). Recommendation D., if
                        implemented, will improve the procedures for disclosing suspense and
                        budget clearing accounts and amounts at DFAS Indianapolis.

           In addition, OUSD(C)/CFO controls over Note 3 disclosures were not adequate to
           ensure that calculation of Line 2.A is accurate and that required disclosures are
           properly communicated in the AGF, Note 3 (Finding E). Recommendation E.1
           and E.2., if implemented, will improve the process for calculating Line 2.A. and

1
    Office of Management and Budget Circular No. A-123, “Management’s Responsibility for Internal
    Control,” December 21, 2004, provides updated internal control standards and new requirements for
    conducting management's assessment of internal control over financial reporting. Revised OMB Circular
    No. A-123 became effective in FY 2006. Subsequently, DoD canceled DoD Instruction 5010.40 and
    issued DoD Instruction 5010.40, “Managers' Internal Control Program Procedures,” January 4, 2006.
    See Appendix G for a discussion of how the revised guidance impacts our reporting on the DFAS
    Indianapolis management control program.



                                                     4
     disclosing check issue, deposit, and IPAC differences; and disclosing all suspense
     and budget clearing accounts in Note 3 for all applicable DoD Components.

     Adequacy of Management’s Self-Evaluation. DFAS Indianapolis did not have
     controls for calculating Line 2.A.; disclosing check issue, deposit, and IPAC
     differences; and disclosing suspense and budget clearing accounts within its
     assessable units and, therefore, did not discover or report the material
     management control weaknesses. We will provide a copy of the report to the
     senior officials responsible for management controls in the office of the Assistant
     Secretary of the Army (Financial Management and Comptroller) and DFAS
     Indianapolis.


Other Matters of Interest
     DFAS Indianapolis is required to disclose a wide range of financial information in
     the AGF Notes to the Financial Statements, Note 3, “Fund Balance With
     Treasury.” Material deficiencies exist in the following areas: Line 2.A., “Fund
     Balance per Treasury,” (Line 2.A.) check issues, deposit and IPAC differences,
     and suspense and budget clearing accounts. There were no material issues with
     in-transit disbursements, unmatched disbursements, and negative unliquidated
     obligations. Specifically, DFAS Indianapolis properly disclosed in-transits and
     problem disbursements in Note 3 on the June 30, 2005, AGF, Notes to the
     Financial Statements and had supporting documentation. However, DFAS
     Indianapolis Standard Operating Procedure (SOP), “Problem Disbursement
     Reports,” April 12, 2005, needs improvements to ensure the accuracy of in-
     transits and problem disbursements that are presented in Note 3. See Appendix F
     for a discussion on how to improve SOP 3011.




                                          5
           A. Calculation of Line 2.A., “Fund
              Balance per Treasury”
           DFAS Indianapolis needs to strengthen its controls and improve its
           process for preparing Note 3. DFAS Indianapolis did not properly
           compute Line 2.A. in Note 3 on the June 30, 2005, AGF, Notes to the
           Financial Statements because it did not follow the OUSD(C)/CFO
           FY 2005 3rd Quarter Guidance and did not have standard operating
           procedures for calculating Line 2.A. As a result, DFAS Indianapolis
           understated Line 2.A. and the reconciling amount in Note 3 by
           $102.5 million.

Line 2.A., “Fund Balance per Treasury” Requirements
    DoD Financial Management Regulations. DoD FMR, volume 6b, chapter 10,
    January 2002, provides guidance on the presentation of Note 3. See Table 2 for
    the format and presentation of Note 3.

                     Table 2. DoD FMR Sample Format

    Note 3. Fund Balance With Treasury
    As of September 30, 20XX                          Current         Prior
                                                       FY              FY
    1. Fund Balances:
       A. Appropriated Funds                            $XXX          $XXX
       B. Revolving Funds                                XXX           XXX
       C. Trust Funds                                    XXX           XXX
       D. Other Fund Types                               XXX           XXX
       E. Total Fund Balances                           $XXX          $XXX

    2. Fund Balance Per Treasury Versus
    Agency:
      A. Fund Balance per Treasury                      $XXX          $XXX
      B. Fund Balance per [Reporting Entity]             XXX           XXX
      C. Reconciling Amount                             $XXX          $XXX

    3. Explanation of Reconciliation Amount:

    4. Other Information Related to FBWT:




                                       6
           DoD FMR requires the following discussion for Lines 3 and 4 of Note 3.

               •   Line 3 should contain an explanation of the cause of any differences in
                   reconciling amounts. Discrepancies caused by time lags and errors should
                   add up to Line 2.C.

               •   Line 4 should contain an explanation of the reason for material changes
                   (greater than 10 percent) in the entity’s FBWT amount from the prior
                   period and disclose instances where the reporting entity does not meet
                   accounting standards.

           Quarterly Guidance. The OUSD(C)/CFO FY 2005 3rd Quarter Guidance
           Attachment 2, “Significant Changes,” (3rd Quarter Guidance) provides guidance
           to DoD reporting entities for calculating Line 2.A. in Note 3. The 3rd Quarter
           Guidance states that Line 2.A. should reflect the Treasury FMS 6654,
           “Undisbursed Appropriation Account Trial Balance,” (FMS 6654) closing
           balance; plus the Treasury FMS 6655, “Receipt Account Trial Balance,”
           (FMS 6655); less any duplicate fund symbols on FMS 6654 and FMS 6655. All
           differences between the FBWT and Line 2.A. must be disclosed in Note 3. 2


Line 2.A., “Fund Balance per Treasury” Reporting
           DFAS Indianapolis needs to improve its process for preparing Note 3. DFAS
           Indianapolis did not properly compute Line 2.A. in Note 3 on the June 30, 2005,
           AGF Notes to the Financial Statement. DFAS Indianapolis reported a balance of
           $130,629,525,717 for Line 2.A. when it should have reported a balance of
           $130,731,986,172. This resulted in an understatement of Line 2.A. and Line 3,
           the reconciling amount, by $102.5 million in Note 3 on the June 30, 2005, AGF,
           Notes to the Financial Statements. See Table 3 for the calculation of Line 2.A.
           using the 3rd Quarter Guidance.

                   Table 3. Calculation of Line 2.A., “Fund Balance per Treasury”


            FMS 6654, Closing Balance                                          $130,618,459,665
                                                                                    125,566,162
            Plus FMS 6655, Year to Date Total
             Subtotal                                                          $130,744,025,827
            Less Duplicate Fund Symbols on FMS 6654 and                              12,039,655
            FMS 6655
             Total                                                             $130,731,986,172




2
    The OUSD(C)/CFO recently incorporated Line 2.A, guidance from the OUSD(C)/CFO 3rd Quarter
    Guidance into the revised DoD FMR, volume 6B, chapter 10, January 2006. Finding E discusses the
    adequacy of the Line 2.A guidance.



                                                    7
    DFAS Indianapolis did not follow 3rd Quarter Guidance for calculating Line 2.A.
    Moreover, DFAS Indianapolis did not have documentation explaining or
    supporting its methodology for calculating Line 2.A. or the other notes to the
    financial statements. Specifically, DFAS Indianapolis did not have procedures:

           •   providing the methodology for retrieving the FMS 6654,

           •   explaining the process for calculating Line 2.A,

           •   requiring the verification of both the amount reported on Line 2.A.,
               and the calculation against supporting documentation,

           •   designating a position at DFAS Indianapolis that is responsible for the
               Line 2.A. calculation and maintaining custody of supporting
               documentation, and

           •   establishing a retention period for supporting documentation that is in
               accordance with DoD retention polices.

    Because it has not established standard operating procedures, DFAS Indianapolis
    does not have adequate controls to ensure compliance with the DoD FMR and the
    accuracy of Line 2.A in Note 3.


Conclusion
    DFAS Indianapolis presented inaccurate information in the Note 3 of AGF Notes
    to the Financial Statements by understating Line 2.A. and the reconciling amount
    by $102.5 million. Note disclosures are an integral part of the AGF financial
    statements. DFAS Indianapolis needs to ensure compliance with OUSD(C)/CFO
    quarterly guidance for calculating Line 2.A. DFAS Indianapolis should establish
    SOPs for preparing notes to the financial statements. DFAS Indianapolis should
    also perform a periodic review of the DoD Financial Management Regulation to
    ensure that established standard operating procedures for calculating Line 2.A. are
    consistent. Following OUSD(C)/CFO quarterly guidance and developing SOPs
    will help ensure that Line 2.A. and the reconciling amount are accurately
    reported. Performing periodic reviews will monitor controls to ensure that the
    information reported in Note 3 is accurate.




                                         8
Actions in Progress
     DFAS Indianapolis personnel developed a new unofficial process to ensure that
     proper amounts are presented on the financial statements and notes. The new
     process requires DFAS Indianapolis personnel to:

            •   trace the note back to source documents to validate that balances are
                presented correctly and

            •   review the note disclosure to ensure that fluctuations are explained,
                and that all schedules balance.

     Because this process is unofficial, there is no requirement that DFAS Indianapolis
     personnel follow it. DFAS Indianapolis needs to develop official procedures that
     provide guidance on how to calculate Line 2.A in Note 3.


Recommendations, Management Comments, and Audit
  Response
     A. We recommend that the Director, Defense Finance and Accounting
     Service Indianapolis improve the process for calculating Line 2.A., “Fund
     Balance per Treasury,” by:

            1. Following the Office of the Under Secretary of Defense
     (Comptroller)/Chief Financial Officer quarterly guidance for calculating
     Line 2.A., “Fund Balance per Treasury.”

     Management Comments. The Director, DFAS Indianapolis concurred. The
     Director, DFAS Indianapolis agreed to follow the Office of the Under Secretary
     of Defense (Comptroller)/Chief Financial Officer quarterly guidance for
     calculating Line 2.A, “Fund Balance per Treasury.”
           2. Establishing standard operating procedures for preparing Note 3,
     “Fund Balance With Treasury,” and calculating Line 2.A., “Fund Balance
     per Treasury,” that:

                   (a) Provide a methodology for retrieving the Treasury FMS
            6654, “Undisbursed Appropriation Account Trial Balance,” from
            Treasury.

                  (b) Outline the process for how to calculate Line 2.A., “Fund
            Balance per Treasury.”

                  (c) Require the verification of Line 2.A., “Fund Balance per
            Treasury,” calculation against the supporting documentation.

                  (d) Require the verification of Line 2.A., “Fund Balance per
            Treasury,” amount against supporting documentation.


                                          9
              (e) Designate a position at Defense Finance and Accounting
       Service, Indianapolis to be responsible for calculating Line 2.A.,
       “Fund Balance per Treasury,” and maintaining custody of supporting
       documentation.

               (f) Establish a retention period for supporting documentation
       that is in accordance with DoD retention policies.

Management Comments. The Director, DFAS Indianapolis concurred with the
recommendations. He agreed that procedures should be articulated on how to
prepare Note 3, “Fund Balance with Treasury,” and calculate Line 2.A., “Fund
Balance per Treasury.” The Director, DFAS Indianapolis also agreed that this
documentation should be part of the official processes used to prepare financial
statements, provide documentation to auditors, and train new individuals.
However, this documentation will be contained in the Fund Balance With
Treasury Assertion Packet.

Audit Response. Although the Director, DFAS Indianapolis concurred with the
recommendations, we consider the comments partially responsive. Including
documentation in the Fund Balance With Treasury Assertion Packet is not
adequate because this documentation does not represent formal standard
operating procedures. DoD Financial Management Regulation, volume 6A,
chapter 2, “Financial Reports Roles and Responsibilities,” requires DFAS to
establish procedures to ensure that the process for preparing financial reports is
consistent, timely, auditable, and that controls are in place to provide for the
accuracy of the reports. In addition, it could be several years before DFAS
Indianapolis formally asserts and approves the Army General Fund, Fund Balance
With Treasury account for external assessment or audit. DFAS Indianapolis
should develop formal standard operating procedures and have the procedures
signed by the Director, DFAS Indianapolis. We request that the Director, DFAS
Indianapolis reconsider his position not to develop formal standard operating
procedures and provide comments on the final report.

      3. Performing periodic reviews of the DoD Financial Management
Regulations to ensure that standard operating procedures Defense Finance
and Accounting Service Indianapolis follows for calculating Line 2.A, “Fund
Balance per Treasury,” are consistent with the DoD Financial Management
Regulations.

Management Comments. The Director, DFAS Indianapolis concurred with the
recommendation. He agreed to perform a review of the DoD Financial
Management Regulation and the Office of the Under Secretary of Defense
(Comptroller)/Chief Financial Officer guidance on a quarterly basis to ensure that
all procedures are being properly implemented for financial statement
presentation.




                                    10
                   B. Check Issue Differences
                   DFAS Indianapolis needs to strengthen its controls over Note 3
                   disclosures for check issue differences. Specifically, DFAS Indianapolis
                   did not:

                           •   accurately disclose check issue differences,

                           •   disclose that May 2005 check issue differences information
                               was used instead of June 2005, and

                           •   provide an explanation for the check issue differences in
                               Note 3 on the June 30, 2005, AGF, Notes to the Financial
                               Statements.

                   Note 3 was not accurate because DFAS Indianapolis did not have
                   adequate SOPs for disclosing check issue differences. DFAS Indianapolis
                   also did not have procedures in place to obtain Treasury’s “Comparison of
                   Checks Issue” report promptly. As a result, DFAS Indianapolis
                   understated the amount of check issue differences between its records and
                   Treasury records by $9.0 million in Note 3 and did not provide required
                   information to financial statement users.


Check Issue Process
          DoD disbursing stations submit their check issue amounts on the SF 1219
          “Statement of Accountability,” (SF 1219). DoD disbursing stations submit check
          issue details to the DFAS Denver Defense Check Reconciliation Module system. 3
          The check issue details include the date, amount, and check serial number. DoD
          then uses the Defense Check Reconciliation Module system to submit the check
          issue details to the Treasury Check Payment and Reconciliation System.
          Treasury uses the Check Payment and Reconciliation system to record all U.S.
          Treasury checks issued and negotiated.
          Treasury then compares, by issue month, the dollar amount of checks issued (as
          reported on DoD disbursing stations’ SF 1219s) with the dollar amount of the
          checks issued as recorded in the Check Payment and Reconciliation system.
          When a check issue monthly total does not balance, the totals from each reporting
          system (SF 1219 and Check Payment and Reconciliation system) and the
          difference will be shown on the Treasury’s “Comparison of Checks Issue” report.




3
    The Defense Check Reconciliation Module system is administered and maintained by DFAS Denver and
    serves as a management control and reporting system for U.S. Treasury checks issued by DoD.



                                                  11
Check Issue Difference Requirements
    Federal Accounting Standards Advisory Board. SFFAS No. 1 states that an
    agency should explain any discrepancies between FBWT in its general ledger
    accounts and the balance in the Treasury’s accounts, and explain the causes of the
    discrepancies in notes to the financial statements.

    Office of Management and Budget. OMB Bulletin 01-09 requires agencies to,
    “. . .explain any discrepancies between fund balance with Treasury, as reflected in
    the entity’s general ledger, and the balance in the Treasury accounts. Disclose
    any other information necessary for understanding the fund balances.”

    DoD Financial Management Regulation. DoD FMR, volume 6b, chapter 10,
    January 2002, provides a sample paragraph of what an entity might disclose for
    check issue discrepancies. Specifically, the sample states:

           The [Reporting Entity] is in the process of collecting information for
           all check issue discrepancy data that are unsupportable because (1)
           records have been lost during deactivation of disbursing offices, (2) the
           Department of the Treasury may not assist in research efforts for
           transactions over 1-year old, or (3) corrections were processed for
           transactions that the Treasury had removed from the check comparison
           report. Transactions that have no supporting documentation due to one
           of the preceding situations shall be provided to the Treasury with a
           request to remove them from the Treasury Check Comparison Report.
           The vast majority of the remaining check issue discrepancies are a
           result of timing differences between the [Reporting Entity] and the
           Department of the Treasury for processing checks. The Department
           plans to request that the Department of the Treasury remove [enter total
           amount requested to be removed] from the check issue comparison
           report.

    The DoD FMR, volume 6b, chapter 10, January 2002, also requires entities to list
    material differences reported for check issue discrepancies on the Treasury’s
    “Comparison of Checks Issue” report. A material difference is defined as an
    amount greater than 10 percent of the entity’s total fund balance. Treasury’s
    “Comparison of Checks Issue” report discloses check issue discrepancies by
    disbursing station, the check issue month, and amount. If material differences
    exist, the net and absolute differences should be aged according to the number of
    days outstanding as follows: 0-30 days, 31-60 days, 61-90 days, and greater than
    90 days.
    Standard Operating Procedures. DFAS Indianapolis SOP 2009, “Treasury
    Check Discrepancies, Procedures for Monitoring Check Differences,”
    April 11, 2005, (SOP 2009), provides guidance for monitoring check issue
    discrepancies.




                                             12
DFAS Indianapolis Check Issue Differences
    DFAS Indianapolis did not accurately disclose check issue differences in Note 3
    on the June 30, 2005, AGF, Notes to the Financial Statements. Also, DFAS
    Indianapolis reported check issue differences for May 2005, instead of June 2005,
    without properly disclosing this information in Note 3. In addition, DFAS
    Indianapolis did not provide an explanation for the check issue differences in
    Note 3.

    Disclosure of Check Issue Differences. DFAS Indianapolis reported check issue
    differences of $31.9 million in Note 3 on the June 30, 2005, AGF, Notes to the
    Financial Statements. However, Treasury reported check issue differences of
    $40.9 million on the May 2005 “Comparisons of Checks Issue” report for AGF.
    This is an understatement of $9.0 million. DFAS Indianapolis inadvertently
    omitted check issue difference information from five Army disbursing stations.
    DFAS Indianapolis identified the mistake, although not before Note 3 was issued.
    See Table 4 for the age categories and the amount of difference between Note 3
    and the Treasury’s “Comparison of Checks Issue” report.

          Table 4. Comparison of Reported Checks Issued Discrepancies
                                  (in millions)
                        0-60 Days        61-180 Days   > 180 Days     Total
          Note 3          $33.8              $3.6         $(5.6)     $31.9


        Treasury's             42.8               3.6             (5.6)        40.9
      “Comparison of
      Checks Issued”
         Report
        Difference            $(9.0)               0                0         $(9.0)

    Month Reported for Check Issue Differences. DFAS Indianapolis reported
    May 2005 data on the June 30, 2005, AGF Note 3 because it did not receive the
    Treasury’s June 2005 “Comparison of Checks Issue” report in time for financial
    reporting. DoD FMR, volume 6B, chapter 1, “Introduction and Summary,”
    August 2003, states that when a substitution is made for the requirements, an
    explanation for the noncompliance should be provided. DFAS Indianapolis did
    not provide the necessary information to financial statement users.
    Explanation of the Causes of Check Issue Difference. DFAS Indianapolis did
    not provide an explanation of the causes for check issue differences on the
    June 30, 2005, AGF, Note 3. Both OMB 01-09 and DoD FMR, volume 6b,
    chapter 10, January 2002, require the DoD reporting entities to explain the reason
    for check issue discrepancies. Including an explanation of the causes of check
    issue differences will enhance the reader’s understanding of FBWT issues.




                                        13
Adequacy of Criteria for Reporting Check Issue Differences
     DFAS Indianapolis did not have adequate controls to ensure the accuracy of
     check issue difference disclosures. In addition, DFAS Indianapolis did not have
     procedures in place to obtain check issue differences from the Treasury’s
     “Comparison of Checks Issue” report promptly.

     Standard Operating Procedures. DFAS Indianapolis SOP 2009 did not provide
     DFAS Indianapolis personnel with all the procedures necessary for properly
     disclosing check issue differences in Note 3. Specifically, DFAS Indianapolis
     SOP 2009 did not:

            •   state from whom and how the Treasury documents are obtained,

            •   define the various types of check issue differences,

            •   require DFAS accountants to determine the cause of the check issue
                differences and disclose it in Note 3, “Fund Balance With Treasury,”

            •   require DFAS accountants to calculate the net and absolute amounts of
                the check issue differences,

            •   require DFAS accountants to analyze the impact on the accuracy of the
                AGF FBWT account,

            •   require that DFAS accountants compare the check issues in Treasury’s
                “Comparison of Checks Issue” report to the DFAS spreadsheet of
                differences,

            •   require that DFAS accountants review the check issue differences and
                verify that data calls are supported,

            •   provide an example of the data call, Treasury’s “Comparison of
                Checks Issue” report, and check issue difference spreadsheet,

            •   state the position/title of the DFAS employee who receives the data
                call,

            •   require that the net and absolute amounts of check differences be
                disclosed in Note 3, “Fund Balance With Treasury,” by the age of
                check issue differences,

            •   require that DFAS accountants use current check issue differences or
                disclose which month’s amounts was used if current differences
                cannot be used, and

            •   require a DFAS accountant to compare the check issue differences
                amount reported in Note 3 to the DFAS Indianapolis spreadsheet.

     Treasury's “Comparison of Checks Issue” Report. On the June 30, 2005,
     AGF Note 3, DFAS Indianapolis disclosed check issue differences based on the


                                         14
     Treasury’s May 2005 “Comparison of Checks Issue” report. DFAS Indianapolis
     did not properly coordinate with Treasury to obtain the Treasury’s June 2005
     “Comparison of Checks Issue” report in time to include these check issue
     differences in Note 3.


Actions in Progress
     As a result of our audit, DFAS Indianapolis revised SOP 2009. The revised
     procedures, dated November 16, 2005:

            •    state who the data call is to be submitted to;

            •    state what Treasury documents DFAS accountants use to prepare the
                 data call; and

            •    include an example of the data call, Treasury’s “Comparison of
                 Checks Issue” report, and check issue difference spreadsheet.

     Although this revision is a positive step, the SOP 2009 needs to include more
     information to address the deficiencies presented in this finding.


Recommendations and Management Comments
     B. We recommend that the Director, Defense Finance and Accounting
     Service Indianapolis:

              1. Revise standard operating procedures 2009, “Treasury Check
     Discrepancies, Procedures for Monitoring Check Differences,”
     November 16, 2005, to:

                    (a) state from who and how the Treasury documents are
     obtained.

                    (b) define the various types of check issue differences.

                    (c) require Defense Finance and Accounting Service
     accountants to determine the cause of the check issue differences and disclose
     it in Note 3, “Fund Balance With Treasury.”

                  (d) require that Defense Finance and Accounting Service
     accountants calculate the net and absolute amounts of the check issue
     differences.

                  (e) require that Defense Finance and Accounting Service
     accountants analyze of the impact on the accuracy of the Army General
     Fund, Fund Balance With Treasury account.




                                           15
              (f) require that Defense Finance and Accounting Service
accountants compare the check issues in Treasury’s “Comparison of Checks
Issue” report to the DFAS spreadsheet of differences.

             (g) require that Defense Finance and Accounting Service
accountants review the check issue differences and verify that data calls are
supported.

            (h) state the position/title of the Defense Finance and
Accounting employee who receives the data call.

             (i) require that Defense Finance and Accounting Service
accountants disclose the net and absolute amounts of check differences in
Note 3, “Fund Balance With Treasury,” by the age of check issue differences.

             (j) require that Defense Finance and Accounting Service
accountants use current check issue differences or disclose what month’s
amounts was used if current differences cannot be used.

              (k) require a Defense Finance and Accounting Service
accountant to compare the check issue differences amount reported in Note 3
to the Defense Finance and Accounting Service spreadsheet.

Management Comments. The Director, DFAS Indianapolis concurred with the
recommendations. The Director, DFAS Indianapolis stated that standard
operating procedures 2009, “Treasury Check Discrepancies, Procedures for
Monitoring Check Differences,” November 16, 2005, has already been updated.

      2. Coordinate with Treasury to obtain the Treasury’s “Comparison
of Checks Issue” report promptly.

Management Comments. The Director, DFAS Indianapolis concurred with the
recommendation to obtain the “Comparison of Checks Issue” report promptly.




                                  16
                   C. Deposit and IPAC Differences
                   DFAS Indianapolis needs to strengthen its controls over Note 3
                   disclosures for deposit and intragovernmental payment and collection
                   differences. 4 DFAS Indianapolis did not disclose the net and absolute
                   amounts of deposit and intragovernmental payment and collection
                   differences in Note 3 on the June 30, 2005, AGF Notes to the Financial
                   Statements. This lack of disclosure occurred because the DoD Financial
                   Management Regulation and DFAS Indianapolis standard operating
                   procedures are inadequate. As a result, DFAS Indianapolis did not
                   disclose:

                                •    deposit differences of $308.5 million (absolute amount
                                     $506.4 million) and

                                •    intragovernmental payment and collection differences of
                                     $5.8 million (absolute amount $5.8 million).


Deposit and IPAC Process
           DoD disbursing stations report the amount of their deposits and debit vouchers
           and intragovernmental payments and collections (IPAC) monthly on the SF 1219.
           DoD disbursing stations also submit a detailed list of the deposit and debit
           voucher activity to Treasury. Treasury then compares the amount of the deposit
           and debit voucher activity reported on the SF 1219 to the amount of deposit and
           debit vouchers reported through the banking system. Any differences are
           reported on FMS 6652, “Statement of Differences-Deposits.” Treasury also
           compares the amount of IPAC reported on the SF 1219 with the total amount
           reported in the IPAC system. Any differences are reported on the FMS 6652,
           “Statement of Differences-Disbursements.”


Deposit and IPAC Difference Requirements
           Federal Accounting Standards Advisory Board. SFFAS No. 1 states that an
           agency should explain any discrepancies between FBWT in its general ledger
           accounts and the balance in the Treasury’s accounts and explain the causes of the
           discrepancies in footnotes to the financial statements.

           Office of Management and Budget. The OMB Bulletin 01-09 requires agencies
           to “. . . explain any discrepancies between fund balance with Treasury, as
           reflected in the entity’s general ledger, and the balance in the Treasury accounts.
           Disclose any other information necessary for understanding the fund balances.”



4
    IPAC differences were previously called on-line payment and collection differences (OPAC).



                                                    17
DoD Financial Management Regulation. DoD FMR, volume 6b, chapter 10,
January 2002, provides sample paragraphs of what an entity might disclose for
deposit and IPAC differences. The sample deposit difference paragraph states:

       The deposit differences are reconcilable differences that represent
       amounts reported by the Treasury or the organization. As of
       September 30, [current FY] and [prior FY], there were $XXX thousand
       and $XXX thousands, respectively, of deposit differences greater than
       180 days old.

The sample IPAC difference paragraph states:

       The On-Line Payment and Collection (OPAC) differences are
       reconcilable differences that represent amounts reported by an
       organization but not reported by its trading partner.         As of
       September 30, [Current FY] and [Prior FY], there was $XXX thousand
       and $XXX thousand, respectively, of OPAC differences greater than
       180-days old. A majority of the differences represent internal DoD
       transactions and therefore do not affect the FBWT at the DoD
       consolidated level. For individual entity level statements, however,
       these differences would affect the amount reported for the FBWT. The
       Department is working with the DFAS sites, the Treasury, and a
       Treasury Department contractor to develop an automated tool to aid in
       reconciling the Treasury’s Statement of Differences. The accounting
       and paying centers established metrics and implemented monthly
       reporting requirements for FY 2001. These actions will aid the
       [Reporting Entity] in clearing many of the old balances and
       establishing better internal controls over the OPAC process.

The DoD FMR, volume 6b, chapter 10, January 2002, also requires that deposit
and IPAC differences older than 180 days be disclosed on Note 3. In addition, the
DoD FMR, chapter 10, January 2002, requires entities to list material differences
reported for deposit and IPAC differences. A material difference is defined as an
amount greater than 10 percent of the entity’s total fund balance. If a material
difference exists, the net and absolute differences should be aged as follows:
0-30 days, 31-60 days, 61-90 days, and greater than 90 days.

Standard Operating Procedures. DFAS Indianapolis SOP 2006, “Deposits in
Transit,” September 12, 2005, (SOP 2006) provides guidance on processing and
monitoring deposit ticket and debit voucher data. DFAS Indianapolis SOP 2416,
“Reporting OPAC vs. SF 1219, Line 2.80, Differences to the Stations,”
May 5, 2000, (SOP 2416), provides guidance on monitoring and processing
OPAC (now termed “IPAC”) transactions.




                                        18
DFAS Indianapolis Deposit and IPAC Differences
    DFAS Indianapolis needs to strengthen its controls over deposit and IPAC
    differences. DFAS Indianapolis did not disclose the net and absolute amount of
    deposit and IPAC differences in Note 3 on the June 30, 2005, AGF, Notes to the
    Financial Statements. As a result, DFAS Indianapolis did not disclose:

           •   deposit differences of $308.5 million (absolute amount of
               $506.40 million) and

           •   IPAC differences of $5.8 million (absolute amount $5.8 million).

    Tables 5 and 6 show the amount and age of deposit and IPAC differences
    disclosed in Note 3 and the FMS 6652 Statement of Differences – Deposits and
    Statement of Differences – Disbursements respectively.

                         Table 5. Deposit Differences
                                 (in millions)
                       0-60 Days    61-180 Days > 180 Days           Total
         Note 3           Not            Not          $0              $0
                       Disclosed      Disclosed

      Statement of       $326.4         $(17.5)         $(0.4)      $308.5
      Differences –
        Deposits


                          Table 6. IPAC Differences
                                 (in millions)
                       0-60 Days 61-180 Days > 180 Days               Total
         Note 3           Not            Not        $0                 $0
                       Disclosed      Disclosed

       Statement of       $5.8              $0            $0          $5.8
      Differences –
      Disbursements




                                       19
Adequacy of Criteria for Reporting Deposit and IPAC
  Differences
    DFAS Indianapolis did not disclose the net and absolute amounts of deposit and
    IPAC differences because the following guidance was inadequate:

           •   DoD FMR, volume 6B, chapter 10, January 2002;

           •   DFAS Indianapolis SOP 2006; and

           •   DFAS Indianapolis SOP 2416.

    DoD Financial Management Regulation. DFAS Indianapolis did not disclose
    deposit and IPAC differences because DoD FMR, volume 6b, chapter 10,
    January 2002, did not meet the requirements of SFFAS No. 1 and OMB Bulletin
    01-09 to explain any discrepancies between FBWT in general ledger accounts and
    the balance in the Treasury’s accounts. The criteria also require agencies to
    explain the causes of the discrepancies in the notes to the financial statements.
    Also, if DFAS Indianapolis only reported differences greater than 10 percent of
    the AGF, Line 1.E., “Total Fund Balances,” as required by the DoD FMR,
    volume 6b chapter 10, January 2002, it would only have to report deposit or
    IPAC differences greater than $13.7 billion. The recommendation concerning
    this issue is in Finding E.
    DFAS Indianapolis Standard Operating Procedures. DFAS Indianapolis
    SOP 2006 and SOP 2416 did not provide DFAS Indianapolis personnel the
    procedures necessary for properly disclosing deposit and IPAC differences in
    Note 3. The SOPs did not:

           •   define the various types of deposit and IPAC differences,

           •   require DFAS accountants to determine the causes of the deposit and
               IPAC differences and disclose them in Note 3, “Fund Balance with
               Treasury,”
           •   require DFAS accountants to calculate the net and absolute amount for
               deposit and IPAC differences and include the results in data calls,

           •   require DFAS accountants to analyze the impact on the accuracy of the
               AGF FBWT,

           •   require DFAS accountants to compare the FMS 6652 Statement of
               Differences—Deposits and Statement of Differences—Disbursements
               to the spreadsheet of differences,

           •   require DFAS accountants to review the deposit and IPAC differences
               and verify that data calls are supported,

           •   provide an example of the FMS 6652 Statement of Differences—
               Deposits and Statement of Differences—Disbursements,


                                       20
          •   state the position/title of the DFAS employee who receives the data
              call,

          •   require DFAS accountants to disclose the net and absolute amounts of
              deposit and IPAC differences in Note 3 by the age of the differences,

          •   require DFAS accountants to use current deposit and IPAC differences
              or disclose which month’s amounts were used if current differences
              cannot be used, and

          •   require DFAS accountants to compare the deposit and IPAC
              differences in Note 3 to the spreadsheet.


Recommendations, Management Comments, and Audit
  Responses
    C. We recommend that the Director, Defense Finance and Accounting
    Service Indianapolis:

               1. Revise SOP 2006, “Deposits In-Transit,” September 12, 2005,
    and SOP 2416, “Reporting OPAC vs. SF 1219, Line 2.80, Differences the
    Stations,” May 2000, to:

                (a) Define the various types of deposit and intragovernmental
          payment and collection differences.

                 (b) Require that Defense Finance and Accounting Service
          accountants determine the causes of the deposit and
          intragovernmental payment and collection differences and disclose
          them in Note 3, “Fund Balance With Treasury.”

                 (c) Require that Defense Finance and Accounting Service
          accountants calculate the net and absolute amount for deposit and
          Intragovernmental Payments and Collections differences, and include
          the results in data calls.

                (d) Require that Defense Finance and Accounting Service
          accountants analyze the impact on the accuracy of the Army General
          Fund, Fund Balance With Treasury.

                 (e) Compare the Treasury FMS 6652 Statement of
          Differences- Deposits and Statement of Differences-Disbursements to
          the spreadsheet of differences.

                 (f) Require Defense Finance and Accounting Service
          accountants to review the deposit and intragovernmental payment
          and collection differences and verify that data calls are supported.




                                      21
              (g) Provide an example of Treasury FMS 6652 Statement of
       Differences-Deposits and Statement of Differences-Disbursements.

             (h) State the position title of the Defense Finance and
       Accounting Service employee who receives the data call.

              (i) Require that Defense Finance and Accounting Service
       accountants disclose the net and absolute amounts of deposit and
       intragovernmental payment and collection differences in Note 3,
       “Fund Balance With Treasury,” by the age of the differences.

               (j) Require that Defense Finance and Accounting Service
       accountants use current deposit and intragovernmental payment and
       collection differences, or disclose which month’s amount they used.

               (k) Require that a Defense Finance and Accounting Service
       accountant compare the deposit and intragovernmental payment and
       collection differences in Note 3, “Fund Balance With Treasury,” to
       the spreadsheet.

Management Comments. The Director, DFAS Indianapolis concurred with all
the recommendations except for Recommendation C.1.i. He stated there is no
requirement in DoD Financial Management Regulations or Office of the Under
Secretary of Defense (Comptroller)/Chief Financial Officer guidance requiring
the amount and age of intragovernmental payments and collections or deposit
differences be disclosed in Note 3, “Fund Balance With Treasury.”

Audit Response. The Director, DFAS Indianapolis comments on
Recommendations C.1.a.-h. and j.-k. are responsive. The Director, DFAS
Indianapolis comments on Recommendation C.1.i. are not responsive. We agree
that the current version of the DoD Financial Management Regulations does not
require the amount and age of intragovernmental payments and collections or
deposit differences be disclosed in Note 3, “Fund Balance With Treasury.”
However, SFFAS No. 1, “Accounting for Selected Assets and Liabilities,”
March 30, 1993; and both OMB Bulletin No. 01-09, “Form and Content of
Agency Financial Statements,” September 25, 2001; and OMB Circular No. A-
136, “Financial Reporting Requirements,” August 23, 2005, require agencies to
explain any discrepancies between the FBWT account balance in their general
ledger and the balance in the Treasury accounts. Also, any other information
necessary for understanding the FBWT account balances should be disclosed. In
addition, Recommendation E.1.a.(2) recommends that the Office of the Under
Secretary of Defense (Comptroller)/Chief Financial Officer revise DoD
Regulation 7000.14-R, DoD Financial Management Regulation, volume 6B,
“Format of DoD Audited Financial Statements,” chapter 10, “Notes to the
Financial Statements,” January 2006, to require that the net, absolute amount, and
age of intragovernmental payments and collections and deposit differences be
disclosed in Note 3, “Fund Balance With Treasury.” We request that the
Director, DFAS Indianapolis reconsider his position not to disclose the amount
and age of intragovernmental payments and collections and deposit differences in
Note 3, “Fund Balance With Treasury,” and provide comments on the final report.



                                    22
           D. Suspense and Budget Clearing
              Accounts
           DFAS Indianapolis needs to improve its controls over Note 3 disclosures
           for suspense and budget clearing accounts. Specifically, DFAS
           Indianapolis did not properly disclose the suspense and budget clearing
           accounts in Note 3. This occurred because the DoD FMR guidance and
           DFAS Indianapolis standard operating procedures are inadequate. In
           addition, DFAS Indianapolis did not follow OUSD(C)/CFO 1st Quarter
           Guidance, Attachment 21, “Fund Balance With Treasury Issues,”
           (1st Quarter Guidance) for reporting suspense and clearing accounts in
           Note 3. As a result, DFAS Indianapolis understated its suspense and
           budget clearing amount in Note 3 by $1.9 million on the June 30, 2005,
           AGF Notes to the Financial Statements.


Suspense and Budget Clearing Account Requirements
    DoD Financial Management Regulation. DoD FMR, volume 6B, chapter 10,
    January 2002, requires Components to disclose suspense account balances and list
    any material suspense accounts separately.

    Quarterly Guidance. The 1st Quarter Guidance states “. . .amounts populated in
    the Note 3 schedule for suspense and clearing accounts must be in agreement with
    the balances reported on the Treasury FMS 6654 for all reporting entities.”

    DFAS Indianapolis Standard Operating Procedures. DFAS Indianapolis
    SOP 2007,“Suspense Accounts Report Monitoring and Reconciliation,”
    May 2005, (SOP 2007), provides standard operating procedures for monitoring
    the field-submitted Suspense Account Report for accuracy and aged balances,
    providing feedback to the field sites, consolidating field-submitted reports, and
    submitting the monthly Suspense Account Report to DFAS Arlington. In
    addition, it provides detailed instructions relating to reconciling and monitoring
    suspense transactions.

DFAS Indianapolis Suspense and Budget Clearing Accounts
    DFAS Indianapolis needs to improve its controls over Note 3 disclosure for
    suspense and budget clearing accounts. DFAS Indianapolis understated its
    suspense and budget clearing amount in Note 3 by $1.9 million on the
    June 30, 2005, AGF Notes to the Financial Statements. DFAS Indianapolis uses
    FMS 6654 to calculate the amount of suspense and budget clearing accounts.
    However, DFAS Indianapolis did not include clearing account F3845, “Proceeds
    of Sales, Personal Property,” in its suspense and budget clearing amount even
    though the 1st Quarter Guidance states that the amounts populated in the Note 3
    schedule for deposit and suspense and budget clearing accounts must agree with
    the balances reported in the FMS 6654 for all reporting entities. As of
    June 30, 2005, FMS 6654 reported a suspense and budget clearing accounts
    balance of $86.7 million, and Note 3 reported a balance of $84.8 million for a


                                         23
    difference of $1.9 million. The difference of $1.9 million represents suspense and
    budget clearing account F3845.


Adequacy of DoD FMR and DFAS Indianapolis SOP and
  Compliance with Quarterly Guidance
    DFAS Indianapolis understated its suspense and budget clearing amount because
    the DoD FMR, volume 6b, chapter 10, January 2002, was inadequate. In
    addition, DFAS Indianapolis did not have sufficient SOPs to ensure that suspense
    and budget clearing accounts were accurately disclosed in Note 3. Furthermore,
    DFAS Indianapolis did not follow 1st Quarter Guidance for reporting suspense
    and budget clearing accounts in Note 3. As a result, DFAS Indianapolis
    understated total disclosures for suspense/clearing accounts by $1.9 million in
    Note 3 on the June 30, 2005, AGF Notes to the Financial Statements.
    DoD Financial Management Regulation. The DoD FMR, volume 6b,
    chapter 10, January 2002, required the Components to disclose suspense account
    balances and list material suspense accounts separately. However, it did not
    specifically require that amounts populated in the Note 3 disclosure for suspense
    and budget clearing accounts be in agreement with the balances reported on the
    FMS 6654 for all reporting entities.

    DFAS Standard Operating Procedures. SOP 2007 did not provide DFAS
    Indianapolis personnel adequate procedures to ensure suspense and budget
    clearing accounts were accurately disclosed in Note 3. Specifically, SOP 2007
    did not:

           •   state what Treasury supporting documents DFAS accountants should
               use when preparing the data call,

           •   state from whom and how DFAS accountants should obtain the
               Treasury documents,

           •   define the various types of suspense and budget clearing accounts,
           •   require that DFAS accountants determine the cause of the suspense
               and budget clearing amount and disclose it in Note 3,

           •   require that DFAS accountants include all suspense and budget
               clearing accounts with the data call by the age of the amounts,

           •   specify whether the Suspense Account Report should be used as the
               data call,

           •   provide an example of the format of the data call,

           •   state the position/title of the DFAS employee who receives the data
               call,



                                        24
           •   require that DFAS accountants review suspense and budget clearing
               accounts, and verify that data calls are supported, and

           •   require that DFAS accountants use the current suspense and budget
               clearing amounts or disclose which month’s amounts were used if
               current amount cannot be used.

    Quarterly Guidance. The 1st Quarter Guidance clearly states that the amounts
    populated in the Note 3 schedule for suspense and budget clearing accounts must
    be in agreement with the balances reported on the FMS 6654 for all Components’
    reporting entities. However, DFAS Indianapolis did not follow 1st Quarter
    Guidance to ensure that the Note 3 schedule for suspense and budget clearing
    accounts was in agreement with the balances reported on the FMS 6654.


Recommendations, Management Comments, and Audit
  Response
    D. We recommend that the Director, Defense Finance and Accounting
    Service Indianapolis:

           1. Establish procedures in compliance with the Office of the Under
    Secretary of Defense (Comptroller)/Chief Financial Officer 1st Quarter
    Guidance to ensure that the suspense and budget clearing amount reported
    on Note 3 agrees with the amounts reported on the Treasury FMS 6654.

    Management Comments. The Director, DFAS Indianapolis concurred with the
    recommendation. The Director, DFAS Indianapolis stated that they worked with
    DDRS-AFS personnel to allow all suspense and budget clearing accounts in
    Note 3, “Fund Balance With Treasury,” to be reported.

    Audit Response. Although the Director, DFAS Indianapolis concurred with the
    recommendation, we consider the comments partially responsive. DFAS
    Indianapolis should also establish procedures to ensure that the suspense and
    budget clearing amounts reported in Note 3, “Fund Balance With Treasury,”
    agree with the amounts reported in the FMS 6654. We request that the Director,
    DFAS Indianapolis reconsider his position not to establish procedures and
    provide comments on the final report.

           2. Revise the Defense Finance and Accounting Service, Indianapolis
    Standard Operating Procedure No. 2007, “Suspense Accounts Report
    Monitoring and Reconciliation,” May 2005, to include additional guidelines
    to ensure accuracy of Note 3 disclosures. Specifically, the standard operating
    procedure should:

                 (a) State what Treasury supporting documents DFAS
           accountants should use when preparing the data call.

                  (b) State from whom and how the Treasury documents are
           obtained.


                                       25
             (c) Define the various types of suspense and budget clearing
       accounts.

             (d) Require that Defense Finance and Accounting Service
       accountants determine the cause of the suspense and budget clearing
       amount and disclose it in Note 3.

              (e) Require that Defense Finance and Accounting Service
       accountants include all suspense and budget clearing accounts with
       the data call, by the age of the amounts.

              (f) Specify whether the suspense account report is used as the
       data call.

               (g) Provide an example of the format of the data call.

             (h) State the position title of the Defense Finance and
       Accounting Service employee who receives the data call.

              (i) Require that Defense Finance and Accounting Service
       accountants review suspense and budget clearing accounts and verify
       that data calls are supported.

              (j) Require that Defense Finance and Accounting Service
       accountants use the current suspense and budget clearing amount, or
       disclose which month’s amount was used if current amount cannot be
       used.

Management Comments. The Director, DFAS Indianapolis partially concurred
with the recommendations and stated that only eight clearing accounts are aged
for the Suspense Account Report and that they report a net unaged figure for all
others. DFAS further stated that the specific accounts that are aged versus unaged
will be identified in the revised SOP. SOP 2007 is being updated to incorporate
these recommendations.

Audit Response. The Director, DFAS Indianapolis comments on
Recommendations D.2.a.-d. and f.-j. are responsive. The Director, DFAS
Indianapolis comments on Recommendation D.2.e. are not responsive. Aging all
suspense and budget clearing accounts will provide a more accurate picture of
DFAS Indianapolis disbursements and collections in suspense.
SFFAS No. 1, “Accounting for Selected Assets and Liabilities,” March 30, 1993;
and OMB Bulletin No. 01-09, “Form and Content of Agency Financial
Statements,” September 25, 2001; and OMB Circular No. A-136, “Financial
Reporting Requirements,” August 23, 2005, require agencies to explain any
discrepancies between the FBWT account balance in their general ledger and the
balance in the Treasury accounts. The criteria also require agencies to explain the
causes of the discrepancies in the notes to the financial statements. We request
that the Director, DFAS Indianapolis reconsider his position not to age all
suspense accounts and provide comments on the final report.




                                    26
           E. Revised DoD Financial Management
              Regulation
           The DoD FMR, volume 6B, chapter 10, Note 3, “Fund Balance With
           Treasury,” January 2006, does not provide adequate controls for ensuring
           that Note 3 disclosures are properly supported and accurate. The DoD
           FMR:

                   •   incorrectly includes receipts that are unavailable in the
                       calculation of Line 2.A.;

                   •   eliminates the disclosure check issue, deposit, and
                       intragovernmental payment and collection differences in
                       Note 3;
                   •   eliminates the disclosure of all suspense and budget clearing
                       accounts in Note 3; and

                   •   incorrectly requires the suspense and budget clearing account
                       balance to agree with the FMS 6653, “Undistributed
                       Appropriation Account Ledger,” (FMS 6653).

           Controls were inadequate because OUSD(C)/CFO issued the revision
           without first formally coordinating it with the DoD IG. In addition,
           OUSD(C)/CFO misinterpreted OMB guidance and omitted the disclosure
           requirements. As a result, DoD reporting entities will continue to misstate
           Note 3 disclosures.


Disclosure Requirements
    Federal Accounting Standards Advisory Board. SFFAS No. 1 states that
    agencies should explain any discrepancies between FBWT in its general ledger
    accounts and the balance in the Treasury’s accounts and explain the causes of the
    discrepancies in footnotes to the financial statements.

    Office of Management and Budget. OMB Circular A-136 requires agencies to
    “. . . explain any discrepancies between fund balance with Treasury, as reflected
    in the entity’s general ledger, and the balance in the Treasury accounts.” OMB
    Circular A-136 also requires disclosure of any other information necessary for
    understanding the fund balances.

    DoD Financial Management Regulations. DoD FMR, volume 6B, chapter 10,
    January 2006, provides guidance on the presentation and disclosures in Note 3.




                                         27
Adequacy of the Revised DoD Financial Management
  Regulation
    DoD FMR, volume 6b, chapter 10, January 2006, does not provide adequate
    controls for Note 3 disclosures. The DoD FMR:

           •   incorrectly includes receipts that are unavailable for making
               expenditures and paying liabilities in the calculation of Line 2.A.;

           •   eliminates the disclosure check issue, deposit, and intragovernmental
               payment and collection differences in Note 3;

           •   eliminates the disclosure of all suspense and budget clearing accounts
               in Note 3; and
           •   incorrectly requires the suspense and budget clearing account balance
               to agree with the FMS 6653.

    Line 2.A., “Fund Balance per Treasury” Requirements. DoD FMR,
    volume 6b, chapter 10, January 2006, incorrectly requires entities to include
    receipts that are unavailable for making expenditures and paying liabilities in the
    calculation of Line 2.A. However, SFFAS No. 1 defines FBWT as the aggregate
    amount of the entity’s accounts with Treasury for which the entity is authorized to
    make expenditures and pay liabilities. Therefore, DoD reporting entities should
    not include unavailable receipts in Line 2.A. because these funds are not available
    for expenditure and payment of liabilities. DoD FMR, volume 6b, chapter 10,
    January 2006, correctly excludes available receipt accounts because these receipts
    would have already been made available to the AGF by Treasury through an
    invisible warrant. Thus, DoD reporting entities should report their closing
    balances on the FMS 6654 less any duplicate available receipt accounts reported
    on the FMS 6655 for Line 2.A.

    Check Issue, Deposit, and IPAC Requirements. DoD FMR, volume 6b,
    chapter 10, January 2006, does not require check issue, deposit, and IPAC
    differences to be disclosed even though SFFAS No. 1, states agencies should
    explain any discrepancies between FBWT in their general ledger accounts and the
    balance in the Treasury’s accounts. SFFAS No. 1 also requires agencies to
    explain the causes of the discrepancies in footnotes to the financial statements. In
    addition, OMB Bulletin 01-09 and OMB Circular A-136 require an agency to
    “explain any discrepancies between fund balance with Treasury, as reflected in
    the entity’s general ledger, and the balance in the Treasury accounts.” OMB
    Bulletin 01-09 and OMB Circular A-136 also require agencies to disclose any
    other information necessary for understanding the fund balances. Thus, reporting
    entities must disclose check issue, deposit, and IPAC differences in Note 3.
    Suspense and Budget Clearing Requirements. The DoD FMR, volume 6b,
    chapter 10, January 2006, incorrectly eliminates the requirement for DoD
    reporting entities to include all suspense and budget clearing accounts in Note 3.
    In addition, the revised DoD FMR chapter 10, January 2006, incorrectly states
    that a reporting entity’s suspense and budget clearing account must agree with the


                                         28
           FMS 6653. However, the FMS 6653 is only issued for accounts with transactions
           during the month. By requiring that reporting entities’ accounts agree with the
           FMS 6653, the DoD FMR may mistakenly lead reporting entities to not include
           all suspense and budget clearing accounts in Note 3. Instead, the DoD FMR
           should require DoD reporting entities’ suspense and budget clearing accounts to
           agree with the FMS 6654 because this report includes all accounts.


    Coordination of Revised DoD FMR and Interpretation of
     OMB Guidance
           OUSD(C)/CFO did not formally coordinate the revised DoD FMR, volume 6b,
           chapter 10, January 2006, with the appropriate organizations before issuing the
           revision. In addition, OUSD(C)/CFO misinterpreted OMB guidance and
           eliminated the requirement to disclose check issue, deposit, and IPAC differences
           and suspense and budgeting clearing accounts.
           Coordination of Revised DoD Financial Management Regulation. The
           OUSD(C)/CFO reissued DoD FMR, volume 6b, chapter 10, January 2006,
           without proper coordination with appropriate organizations, including the DoD
           Inspector General. DoD Directive 5025.1, “DoD Directives System,” July 14,
           2004, states that proposed DoD issuances, 5 including changes, reissuances, and
           cancellations of these documents should be formally coordinated to solicit views
           of the Heads of the DoD Components. Specifically, DoD Directive 5025.1 states
           that all DoD issuances must be coordinated with the DoD Inspector General. If
           the revised DoD FMR chapter 10, January 2006, had been coordinated properly
           with the DoD Inspector General, the inadequacies with Line 2.A, check issue,
           deposit, and IPAC differences and suspense and budget clearing disclosure
           requirements could have been prevented.

           Interpretation of OMB guidance. DoD FMR, chapter 10, January 2006,
           eliminated the requirement to disclose check issue, deposit, and IPAC differences
           and all suspense and budget clearing accounts in Note 3. The OUSD(C)/CFO
           misinterpreted OMB Circular A-136 and eliminated the requirement to disclose
           check issue, deposit, and IPAC differences and all suspense and budget clearing
           accounts. However, OMB Circular A-136, specifically, requires agencies to
           explain any discrepancies between fund balance with Treasury, as reflected in the
           entity’s general ledger, and the balance in the Treasury accounts. In addition,
           SFFAS No. 1 states agencies should explain any discrepancies between FBWT in
           their general ledger accounts and the balance in the Treasury’s accounts and
           explain the causes of the discrepancies in the notes to the financial statements.
           Thus, DoD reporting entities should be required to disclose check issue, deposit,
           and IPAC differences and suspense and budget clearing accounts in Note 3.




5
    DoD issuances include directives, instructions, and publications. Publications consist of regulations,
    manuals, and all other DoD issuances that are not DoD directives and instructions.



                                                       29
Conclusion
    Note disclosures are an integral part of AGF financial statements.
    OUSD(C)/CFO should revise the DoD FMR to delete the requirement to include
    unavailable receipt accounts in the Line 2.A. calculation. OUSD(C)/CFO also
    needs to revise the DoD FMR to require DoD reporting entities to disclose check
    issue, deposits, and IPAC differences and all suspense and budget clearing
    accounts in Note 3. In addition, OUSD(C)/CFO should add a requirement to the
    DoD FMR to provide an explanation for any differences between the DoD
    reporting entity’s suspense and budget clearing account balance and the FMS
    6654. Revising the DoD FMR will assist the OUSD(C)/CFO in ensuring that
    Note 3 is properly disclosed and presented in Note 3. In addition, the revisions to
    the DoD FMR will ensure that a consistent process is used by DoD reporting
    entities to disclose financial information in Note 3. Until revisions are made,
    OUSD(C)/CFO should implement interim guidance that includes
    recommendations listed in this finding. OUSD(C)/CFO should also formally
    coordinate revisions to the DoD FMR prior to issue so that any discrepancies can
    be resolved. Thus, the OUSD(C)/CFO should revise the DoD FMR to improve
    the controls for Note 3, resolve the inadequacies, and ensure that future Note 3
    disclosures are reliable, accurate, and properly presented. Finally, DFAS
    Indianapolis should follow interim guidance for Note 3 disclosures and comply
    with the recommended revisions to the DoD FMR.


Recommendations and Management Comments
    E.1. We recommend that the Office of the Under Secretary of Defense
    (Comptroller)/Chief Financial Officer improve the controls over Note 3
    disclosures by:

          a. Revising the DoD Regulation 7000.14-R, DoD Financial
    Management Regulation, volume 6B, “Format of DoD Audited Financial
    Statements,” chapter 10, “Notes to the Financial Statements,” January 2006
    to:

                 (1) Delete the requirement to include the Treasury FMS 6655,
           “Receipt Account Trial Balance,” in the calculation of Line 2.A.,
           “Fund Balance per Treasury.”

                  (2) Include a requirement to disclose check issue, deposit, and
           intragovernmental payment and collection differences in Note 3,
           “Fund Balance With Treasury,” by disclosing the net and absolute
           amount of the differences, the age of the differences, and an
           explanation for the differences.

                   (3) Add the requirement for DoD reporting entities to include
           all suspense and budget clearing accounts in Note 3, “Fund Balance
           With Treasury.



                                        30
                   (4) Add a requirement that states that when the reporting
           entity’s suspense and budget clearing account balance does not agree
           with the Treasury FMS 6654, “Undisbursed Appropriation Account
           Trial Balance,” the entity must include a disclosure explaining the
           difference.

          b. Coordinating the revisions to the DoD Regulation 7000.14-R, “DoD
    Financial Management Regulation, volume 6B, “Format of DoD Audited
    Financial Statements,” chapter 10, “Notes to the Financial Statements,”
    January 2006 with the Heads of DoD Components including DoD IG.

           c. Issuing interim guidance that requires DoD reporting entities to
    follow Recommendation E.1.a (1)-(4).


Management Comments Required
    The Office of the Under Secretary of Defense (Comptroller)/Chief Financial
    Officer did not comment on a draft of this report. We request that the Office of
    the Under Secretary of Defense (Comptroller)/Chief Financial Officer provide
    comments on the final report.

    E.2. We recommend that the Director, Defense Finance and Accounting
    Service Indianapolis:

          a. Establish procedures to ensure compliance with the Office of the
    Under Secretary of Defense (Comptroller)/Chief Financial Officer interim
    guidance established by Recommendation E.1.c.

          b. Comply with the recommended revisions to the DoD Financial
    Management Regulation, volume 6B, chapter 10, Note 3, “Fund Balance
    With Treasury,” January 2006.
    Management Comments. The Director, DFAS Indianapolis concurred with the
    recommendations. The Director, DFAS Indianapolis agreed to establish
    procedures to ensure compliance with interim guidance when issued and to
    comply with any revisions to DoD Financial Management Regulations. The
    Director, DFAS Indianapolis stated that their actions are contingent upon the
    Office of the Under Secretary of Defense (Comptroller)/Chief Financial Officer
    concurring with the recommendations addressed to them.




                                        31
Appendix A. Scope and Methodology
   We reviewed the internal controls over the AGF, Note 3 disclosures on the
   June 30, 2005 financial statements. We also reviewed the criteria related to the
   accounting for and reporting FBWT. We reviewed the following guidance:

          •   SFFAS No. 1, “Accounting for Selected Assets and Liabilities,”
              March 30, 1993,

          •   OMB Bulletin 01-09, “Form and Content of Agency Financial
              Statements,” September 25, 2001,

          •   OMB Circular A-136, “Financial Reporting Requirements,”
              August 23, 2005,

          •   DoD FMR Regulation 7000.14-R, volume 6B, “Format of DoD
              Audited Financial Statements,” chapter 10, “Notes to the Financial
              Statements,” January 2002 and 2006, and

          •   OUSD(C)/CFO FY 2005, 1st Quarter and 3rd Quarter Guidance.

   In addition, we reviewed DFAS Indianapolis SOPs to determine whether adequate
   procedures existed for reporting Note 3 disclosures. Additionally, we determined
   whether supporting documentation existed for the following Note 3 disclosures:
   Line 2.A., “Fund Balance per Treasury;” check issue, deposit, and IPAC
   differences; suspense and budget clearing accounts; and in-transits, unmatched
   disbursements, and negative unliquidated liquidated obligations. However, we
   did not determine whether the supporting documentation was accurate. We just
   determined whether supporting documentation existed.

   We performed this audit from July 2005 through July 2006 in accordance with
   generally accepted government auditing standards.

   Use of Computer-Processed Data. We relied on computer-processed data from
   Treasury accounting and reporting systems obtained through the Government
   On-Line Accounting Link Information Access System II (GOALS II).
   Specifically, we relied on the following June 30, 2005, Treasury reports for our
   review of AGF Note 3 disclosures:
          •   Treasury FMS 6652, “Statement of Differences – Deposits,”

          •   Treasury FMS 6652, “Statement of Differences – Disbursements,”

          •   Treasury FMS 6654, “Undisbursed Appropriation Account Trial
              Balance,” and

          •   Treasury FMS 6655, “Receipt Account Trial Balance.”




                                       32
We did not perform a formal reliability assessment of computer-processed
financial data because GOALS II is a Treasury system.

We relied on data from Defense Departmental Reporting System-Audited
Financial Statements. Specifically, we relied on the June 30, 2005, Defense
Departmental Reporting System-Audited Financial Statements AGF and DoD
Agency-Wide Balance Sheets and Note 3. We relied on these Balance Sheets to
calculate the AGF FBWT account and total assets as a percentage of the DoD
Agency-Wide FBWT account and total assets. In addition, we calculated the
AGF and DoD Agency-Wide FBWT account percentage of the AGF and DoD
Agency-Wide total assets. Additionally, we used the June 30, 2005, Defense
Departmental Reporting System-Audited Financial Statements Balance Sheet and
Note 3 to determine whether the AGF FBWT amount reported on the AGF
Balance Sheet agreed with the AGF FBWT amount reported in Note 3. We did
not perform a formal reliability assessment of computer-processed data because
we were only determining whether DFAS Indianapolis could provide support for
the data presented in Note 3. We did not find errors that would preclude the use
of the computer-processed data to meet the audit objectives or that would change
the conclusions in the report.

We also relied on information queried from the FoxPro database regarding
unmatched disbursements, negative unliquidated obligations, and in-transits. We
did not perform a formal reliability assessment of computer-processed data
because we were only determining whether DFAS Indianapolis could support the
data presented in Note 3. We did not find errors that would preclude the use of
the computer-processed data to meet the audit objectives or that would change the
conclusions in the report.

Use of Technical Assistance. We did not use technical assistance to perform this
audit.

Government Accountability Office High-Risk Area. The Government
Accountability Office has identified several high-risk areas in DoD. This report
provides coverage of the Financial Management high-risk area. GAO considered
DoD Financial Management a high risk because DoDs financial management
deficiencies represent the single largest obstacle to achieving an unqualified
opinion on the U.S. Government’s consolidated financial statements. DoD
continues to face financial management problems that are pervasive, complex,
long-standing, and deeply rooted in virtually all its business operations. DoD
financial management deficiencies adversely affect the Department’s ability to:

   •   control costs and claims on the budget;

   •   measure performance;

   •   maintain funds control, prevent fraud; and

   •   address pressing management issues.

GAO first designated this area as high risk in 1995, and it remains so today.



                                    33
Appendix B. Prior Coverage
       During the last 5 years, the Government Accountability Office (GAO), the
       Department of Defense Inspector General (DoD IG), the US Army Audit Agency
       (AAA), and the Air Force Audit Agency (AFAA) have issued 14 reports
       discussing FBWT account issues. Unrestricted GAO reports can be accessed over
       the Internet at http://www.gao.gov. Unrestricted DoD IG reports can be accessed
       at http://www.dodig.mil/audit/reports. Unrestricted AAA reports can be accessed
       at https://www.aaa.army.mil/reports.htm. Unrestricted AFAA reports can be
       accessed at https://www.afaa.hq.af.mil/afck/plansreports/reports.shtml.


GAO

       GAO Report No. GAO-05-521, “DoD Problem Disbursements: Long-standing
       Accounting Weaknesses Result in Inaccurate Records and Substantial Write-
       offs,” June 2, 2005


DoD IG

       DoD IG Report No. D-2006-039, “Internal Controls Over the Compilation of the
       Air Force, General Fund, FBWT for FY 2004,” December 22, 2005

       DoD IG Report No. D-2005-026, “Reliability of U.S. Army Corps of Engineers,
       Civil Works, Fund Balance With Treasury and Unexpended Appropriations,”
       December 28, 2004

       DoD IG Report No. D2004-106, “Selected Controls Over the Army FBWT at
       DFAS Indianapolis,” August 5, 2004
       DoD IG Report No. D-2003-034, “Adjustments to the Intergovernmental
       Payments Account,” December 10, 2002

       DoD IG Report No. D-2002-019, “Checks Issued Differences for Deactivated
       Disbursing Stations,” November 28, 2001


Army

       AAA Report No. A-2005-0136-ALW, “Attestation Examination of Selected
       Army Chief Financial Officers Strategic Plan Tasks, Fund Balance With
       Treasury,” March 18, 2005

       AAA Report No. A-2005-0127-ALW, “Validation of the Army’s Fund Balance
       with Treasury,” March 10, 2005



                                         34
       AAA Report No. A-2004-0431-AMW “Validation of the Army’s Fund Balance
       With Treasury, Defense Finance and Accounting Service Columbus Center,”
       August 3, 2004

       AAA Report No. A-2004-0369-AMW, “Obligations for Requisitions, Standard
       Operations and Maintenance Army Research and Development System
       (SOMARDS),” June 30, 2004

       AAA Report No. A-2004-0006-FFG, “General Fund Followup Issues,”
       October 29, 2003

       AAA Report No. AA02-142, “FY 01 Financial Statements - U.S. Army Corps of
       Engineers, Civil Works,” February 8, 2002


Navy

       NAS Report No. N2005-0005, “Department of the Navy’s Fund Balance With
       Treasury Account,” October 19, 2004


Air Force

       AFAA Report No. F2005-0001-FB3000, “Fund Balance With Treasury for Air
       Force General and Working Capital Funds,” June 21, 2005




                                       35
Appendix C. Fund Balance With Treasury
           Accounting Standards and Criteria for Fund Balance With Treasury.
           Statement of Federal Financial Accounting Standards No. 1, “Accounting for
           Selected Assets and Liabilities,” March 30, 1993, * defines an agency’s Fund
           Balance With Treasury as the aggregate amount of funds in the agency’s accounts
           with Treasury for which the agency is authorized to make expenditures and pay
           liabilities. Fund Balance With Treasury is an intragovernmental item. From the
           reporting agency’s perspective, Fund Balance With Treasury is an asset because it
           represents the agency’s claim to Federal Government resources. However, from
           the perspective of the Federal Government as a whole, it is not an asset; and while
           it represents a commitment to make resources available to Federal departments,
           agencies, programs, and other entities, it is not a liability.

           A Federal entity’s Fund Balance With Treasury includes clearing account
           balances. An entity’s Fund Balance With Treasury is increased by:

                    •    receiving appropriations, reappropriations, continuing resolutions,
                         appropriation restorations, and allocations received;

                    •    transfers and reimbursements received from other agencies; and

                    •    collections and credits to appropriation or fund accounts that the entity
                         is authorized to spend or use to offset its expenditures.

           An entity’s Fund Balance With Treasury is reduced by disbursements made to
           pay liabilities or to purchase assets, goods and services, investments in U.S.
           securities, cancellation of expired appropriations, transfers and reimbursements to
           other entities or to the Treasury, and sequestration or rescission of appropriations.

           Agencies should disclose the two parts of the Fund Balance With Treasury
           balance: the obligated balance not yet disbursed and the unobligated balance. In
           addition, agencies should explain any discrepancies between Fund Balance With
           Treasury in their general ledger accounts and the balance in the Treasury’s
           accounts and explain the causes of the discrepancies in footnotes to the financial
           statements.




*
    The Federal Accounting Standards Advisory Board (the Board) issues Statements of Federal Financial
     Accounting Standards. In October 1990, the Secretary of the Treasury, the Director of the Office of
     Management and Budget, and the Comptroller General of the United States established the Board to
     develop accounting standards and principles for the United States Government. In October 1999, the
     American Institute of Certified Public Accountants recognized the Board as the organization that
     promulgates generally accepted accounting principles for Federal entities.



                                                      36
Appendix D. Glossary
   Check Issue Differences. These represent differences that occur when the dollar
   amount of checks reported by DoD disbursing stations do not agree with the
   dollar amount of checks recorded by Treasury.

   Clearing Account. Treasury establishes clearing accounts to temporarily hold
   unidentified general, special, or trust collections that belong to the Federal
   Government until they are classified to the proper receipt or expenditure account
   by the Federal entity. An “F” preceding the last 4 digits of the fund account
   symbol identifies these accounts. Clearing accounts consist of the “3800” series
   fund group.

   Data Calls. In this report we refer to information compiled by DFAS employees
   and provided to the Army General Funds Branch for the purpose of disclosing this
   information in Note 3 as data calls.

   Defense Departmental Reporting System – Audited Financial Statements.
   Defense Departmental Reporting System – Audited Financial Statements is a
   DoD application that facilitates the preparation and audit of DoD financial
   statements, and required supplementary information.

   Deposit Differences. These represent differences that occur when the amount of
   deposits and debit vouchers recorded by DoD disbursing stations does not agree
   with Treasury records. The differences are reported on the Treasury FMS 6652,
   “Statement of Differences-Deposits.”

   Fund Balance With Treasury (FBWT). This is the aggregate amount of funds
   in the agency’s accounts with Treasury for which the agency is authorized to
   make expenditures and pay liabilities. Fund Balance With Treasury is an
   intragovernmental item. From the reporting agency’s perspective, Fund Balance
   With Treasury is an asset because it represents the agency’s claim to Federal
   Government resources. However, from the perspective of the Federal
   Government as a whole, it is not an asset; and while it represents a commitment to
   make resources available to Federal departments, agencies, programs, and other
   entities, it is not a liability.
   Government On-Line Accounting Link Information Access System II
   (GOALS II). This is the system that allows Treasury to receive agency
   accounting data and distribute agency accounting reports. The system includes
   many different subsystems for different financial accounting and reporting
   purposes.

   Intra-governmental Payment and Collection System (IPAC). The IPAC
   application’s primary purpose is to provide an automated, standardized,
   interagency funds expenditure transfer mechanism for Federal Program Agencies.
   It facilitates intragovernmental Federal e-commerce by transferring funds, with
   related descriptive data, from one Federal Program Agency to another on a real-
   time basis.


                                       37
IPAC Differences. These represent differences that occur when the amount
recorded on the SF 1219, “Statement of Accountability,” does not agree with the
IPAC system. Any differences are reported on the Treasury FMS 6652,
“Statement of Differences-Disbursements.”

In-Transits. These represent the net value of disbursements and collections
made by a DoD disbursing activity on behalf of an accountable activity, but not
yet posted in an accounting system.

Invisible Warrant. Treasury transfers the funds from available receipt accounts
to expenditure accounts through their internal processes. These actions take place
without hard copy document.

SF (Standard Form) 1219, “Statement of Accountability. Each DoD
disbursing station is required to prepare the Statement of Accountability monthly.
The Statement of Accountability reports information to the Treasury on deposits,
interagency transfers, and checks issued. The Statement of Accountability also
reports net disbursements—the sum of deposits, interagency transfers, and checks
issued that month.

SF 1220, “Statement of Transactions.” Each DoD disbursing station is required
to prepare the Statement of Transactions monthly. The Statement of Transactions
reports the disbursements shown on the Statement of Accountability by
appropriations. Treasury requires that the net disbursements reported on the
Statement of Transactions agree with the net disbursements reported on the
Statement of Accountability.

Suspense Account. This is an account that temporarily holds unidentifiable
special or trust fund collections that belong to the Federal Government until they
are classified to the proper receipt or expenditure account by the Federal entity.

Treasury Financial Management Service (FMS) 6652, “Statement of
Differences (SOD).” The Treasury FMS 6652 reports both deposits and
disbursements. Differences resulting from deposits indicate there is a discrepancy
between the monthly totals submitted through the banking system and the totals
provided by the agency on the SF 1219 (section I, line 4.2). The SOD for
disbursements reveals discrepancies between monthly totals reported by the DoD
disbursing station and/or through IPAC and totals in agency reports on the
SF 1219 section I, (line 2.80).

Treasury FMS 6654, “Undisbursed Appropriation Account Trial Balance.
The Treasury FMS 6654 provides agencies with summary data about their
expenditure accounts. This data is summarized for each appropriation and fund
account at the departmental level and at the bureau level for certain executive
departments. The data reveal the balance forwarded at the beginning of the fiscal
year, cumulative warrants, nonexpenditure transactions, net disbursements to date
and closing balances at month end. Federal agencies must reconcile their FBWT
accounts to the closing balance shown in the report.

Treasury FMS 6655, “Receipt Account Trial Balance.” The FMS 6655 shows
receipt balances by fund account symbol and department. This includes year to


                                    38
date and current month receipt totals. Federal agencies must reconcile their
current month and year to date current activity to the balances disclosed in the
FMS 6655.

Unavailable Receipt Accounts. These are receipts, that at the time of collection,
are not appropriated and not immediately available for expenditure.

Unmatched Disbursements. These occur when the accounting office receives
and accepts disbursement transactions, but has not matched them to the correct
detail obligation. This includes transactions that the accounting office rejected
back to the paying office or central disbursement clearing organization.




                                     39
Appendix E. Treasury Reports for Fund Balance
            With Treasury
   Treasury prepares five Fund Balance With Treasury reports. The five include
   three Fund Balance With Treasury reports for receipt accounts and two Fund
   Balance With Treasury reports for expenditure accounts.

   Treasury Reports for Receipt Accounts. The three FBWT reports for receipt
   accounts provide the current month receipts and fiscal year-to-date FBWT. The
   Treasury reports follow.

          •   Treasury FMS 6655, “Receipt Account Trial Balance,” reports receipt
              accounts every month for each applicable account, including accounts
              with no transactions during the month.
          •   Treasury FMS 6655, “Receipt Account Ledger,” reports accounts with
              transactions during the month, but does not list accounts that had no
              transactions during the month.

          •   Treasury FMS 6655, “Report of Unavailable Receipt Transactions”
              reports only unavailable receipt accounts for accounts with
              transactions during the month, but does not list accounts that had no
              transactions during the month.

   Treasury Reports for Expenditure Accounts. The two FBWT reports for
   expenditure accounts include the following.

          •   Treasury FMS 6654, “Undisbursed Appropriation Account Trial
              Balance,” reports expenditure accounts with and without transactions
              during the month and
          •   Treasury FMS 6653, “Undisbursed Appropriation Account Ledger,”
              reports expenditure accounts that had transactions during the month,
              but does not list accounts that had no transactions during the month.




                                       40
Appendix F. SOPs for Problem Disbursements
            and Financial Reporting
   Standard Operating Procedures for Problem Disbursements. DFAS
   Indianapolis properly disclosed amounts for in-transits, unmatched
   disbursements, and negative unliquidated obligations on the June 30, 2005, AGF
   financial statements, Note 3. However, the DFAS Indianapolis SOP 3011,
   “Problem Disbursement Reports,” April 21, 2005, (SOP 3011) needs
   improvement to ensure reliability of Note 3 disclosures.

   SOP 3011 provides guidance on how to prepare Problem Disbursement Reports.
   Specifically, SOP 3011 outlines the SOPs for consolidating, reviewing, analyzing
   and reporting problem disbursements. However, SOP 3011 does not include all
   procedures necessary to ensure proper disclosure of problem disbursements in
   Note 3. Specifically, SOP 3011 does not:
          •   state what supporting documentation to use when preparing the data
              call,

          •   state from whom and how the supporting documentation is obtained,

          •   provide an example of the format for problem disbursements data
              calls,

          •   state the position title of the DFAS employee who receives the data
              call,

          •   define the various types of problem disbursement issues,

          •   provide an example of Treasury reports used,
          •   require that DFAS accountants prepare a spreadsheet of DFAS
              Indianapolis problem disbursements,

          •   require that DFAS accountants compare the Treasury report to the
              spreadsheet,

          •   require that DFAS accountants calculate the net and absolute amount
              for problem disbursements and include the amounts in data calls,

          •   require that DFAS accountants determine and disclose the cause of the
              problem disbursement,

          •   require that DFAS accountants analyze the impact on the accuracy of
              the AGF FBWT,

          •   require that DFAS accountants review the problem disbursement and
              verify that data calls are supported,


                                      41
       •   require that DFAS accountants disclose the net and absolute amounts
           of problem disbursement in Note 3 by the age of the differences, and

       •   require that DFAS accountants compare the problem disbursements in
           Note 3 to the spreadsheet.

Standard Operating Procedures for Financial Reporting. The DFAS
Indianapolis Financial Reporting Branch does not have SOPs in place to ensure
that proper amounts and required disclosures are made in Note 3. Specifically,
DFAS Indianapolis does not have an SOP to verify information in data calls to
supporting documentation before reporting the information in Note 3. However,
DFAS Indianapolis personnel stated that SOPs are being put in place for future
fiscal year quarters. In addition, DFAS Indianapolis has assigned a staff member
from the Audit Liaison Office to review note disclosures and compare disclosures
to supporting documentation. Additionally, DFAS Indianapolis personnel stated
that they will conduct a review of note disclosures for explanation of fluctuations
and ensure that all schedules balance. Further, DFAS Indianapolis will assign an
employee as the audit point of contact and hold that employee responsible for
participating in note reviews and develop a document to determine how to audit
major segments of FBWT. DFAS Indianapolis personnel stated that developing
and implementing an SOP will provide an additional control. DFAS Indianapolis
should take action and incorporate these procedures and other procedures into a
formal SOP.




                                    42
Appendix G. Office of Management and Budget
            Circular A-123
   OMB recently revised OMB Circular A-123, “Management Accountability and
   Control,” June 21, 1995. The new OMB A-123, “Management’s Responsibility
   for Internal Control,” became effective FY 2006 and superseded all previous
   versions.

   Requirements. OMB Circular A-123 provides updated internal control standards
   and new specific requirements for conducting management’s assessment of the
   effectiveness of internal control over financial reporting. Additionally,
   OMB Circular A-123 provides guidance to DoD managers on improving the
   accountability and effectiveness of DoD programs and operations by establishing,
   assessing, correcting, and reporting on internal control.
   OMB Circular A-123 also requires DoD to take systematic and proactive
   measures to,

          (i) develop and implement appropriate, cost-effective internal control
          for results-oriented management; (ii) assess the adequacy of internal
          control in Federal programs and operations; (iii) separately assess and
          document internal control over financial reporting consistent with the
          process defined in Appendix A, ‘Internal Control over Financial
          Reporting,’ (iv) identify needed improvements; (v) take corresponding
          corrective action; and (vi) report annually on internal control through
          management assurance statements.

   Additionally, OMB Circular A-123 states, “. . .when assessing the effectiveness
   of internal control over financial reporting and compliance with financial-related
   laws and regulations, management must follow the assessment process contained
   in Appendix A, ‘Internal Control Over Financial Reporting’.” Appendix A,
   “Internal Control Over Financial Reporting,” provides a methodology for agency
   management to assess, document, and report on the internal controls over
   financial reporting.

   Reliability of Financial Reporting. OMB Circular A-123, Appendix A, also
   states, “internal control over financial reporting is a process designed to provide
   reasonable assurance regarding the reliability of financial reporting.” Reliability
   of financial reporting means that management can reasonably make the following
   assertions.

          •   All reported transactions actually occurred during the reporting period
              and all assets and liabilities exist as of the reporting date (existence
              and occurrence).

          •   All assets, liabilities, and transactions that should be reported have
              been included, and no unauthorized transactions or balances are
              included (completeness).


                                            43
       •   All assets are legally owned by the agency, and all liabilities are legal
           obligations of the agency (rights and obligations).

       •   All assets and liabilities have been properly valued and, where
           applicable, all costs have been properly allocated (valuation).

       •   The financial report is presented in the proper form, and any required
           disclosures are present (presentation and disclosure).

       •   The transactions comply with laws and regulations (compliance).

       •   All assets have been safeguarded against fraud and abuse.

       •   Documentation for internal control, all transactions, and other
           significant events is readily available for examination.

Definitions of Deficiencies. OMB Circular A-123 organizes deficiencies into the
following categories:

       Control Deficiency. A control deficiency exists when the design or
       operation of a control does not allow management or employees, in the
       normal course of performing their assigned functions, to prevent or
       detect misstatements on a timely basis. A design deficiency exists
       when a control necessary to meet the control objective is missing or an
       existing control is not properly designed, so that even if the control
       operates as designed the control objective is not always met. An
       operation deficiency exists when a properly designed control does not
       operate as designed or when the person performing the control is not
       qualified or properly skilled to perform the control effectively.

       Reportable Condition. A reportable condition is a control deficiency,
       or combination of control deficiencies, that adversely affects the
       entity’s ability to initiate, authorize, record, process, or report external
       financial data reliably in accordance with generally accepted
       accounting principles such that there is more than a remote likelihood
       that a misstatement of the entity’s financial statements, or other
       significant financial reports, that is more than inconsequential will not
       be prevented or detected.

       Material Weakness. A material weakness in internal control is a
       reportable condition, or combination of reportable conditions, that
       results in more than a remote likelihood that a material misstatement of
       the financial statements, or other significant financial reports, will not
       be prevented or detected.




                                           44
The definitions of a control deficiency, reportable condition, and material
weakness in OMB Circular A-123 relative to financial reporting are based on
Auditing Standard No. 2, “An Audit of Internal Control Over Financial Reporting
Performed in Conjunction with An Audit of Financial Statements,” issued by the
Public Company Accounting Oversight Board. Public Company Accounting
Oversight Board Auditing Standard No. 2 states, “. . .the same concept of
materiality that applies to financial reporting applies to information on internal
control over financial reporting, including the relevance of both quantitative and
qualitative considerations.”

Impact of Audit Results on the Reliability of Financial Reporting. Based on
the revised OMB Circular A-123, we consider the findings we identified material.
While individually these issues may not be material, taken as a whole, they are a
material weakness. We based our decision on quantitative and qualitative
considerations. OMB Circular A-123 states that reliability of financial reporting
means that management can make the following assertions:

       •   the financial report is presented in proper form and any required
           disclosures are present (presentation and disclosure) and

       •   documentation for internal control, all transactions, and other
           significant events is readily available for examination.

DFAS Indianapolis internal controls over the calculation of Line 2.A. were not
adequate to ensure the proper amount was calculated and disclosed. Additionally,
DFAS Indianapolis internal controls were not adequate to ensure that check issue
differences, deposit differences, IPAC differences, and suspense/clearing
accounts were properly disclosed in the June 30, 2005, AGF, Note 3.




                                    45
Appendix H. Report Distribution
Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Combatant Command
Inspector General, U.S. Joint Forces Command

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Contract Management Agency
Director, Defense Finance and Accounting Service
Director, Defense Intelligence Agency
Director, Defense Logistics Agency
Director, National Secuity Agency
President, Defense Systems Management College

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and Ranking
  Minority Member
Senate Committee on Appropriations


                                          46
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Finance, and Accountability,
  Committee on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform




                                        47
Defense Finance and Accounting Service
Comments




                      49
50
51
52
53
54
55
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Patricia A. Marsh
Douglas P. Neville
Mark S. Henricks
Jose J. Delino
William W. Lemmon
Lashonda Thompson
James Fleischman
Thomas G. Daquano, Jr.
Marcia Hart
William Fagerholm
Cindy Gavura
Karen Borrero
